Audit Report




OIG-11-087
SAFETY AND SOUNDNESS: Material Loss Review of New South
Federal Savings Bank
July 14, 2011




Office of
Inspector General
Department of the Treasury
Contents



Memorandum for the Acting Director, Office of Thrift Supervision


Section I   Moss Adams LLP’s Report on the Material Loss Review of
            New South Federal Savings Bank


Section II Report Distribution
This page intentionally left blank
                                           DEPARTMENT OF THE TREASURY
                                                  W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                       July 14, 2011




            MEMORANDUM FOR JOHN E. BOWMAN
                           ACTING DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                       Donald P. Benson /s/
                                        Audit Director

            SUBJECT:                    Material Loss Review of New South Federal Savings Bank


            INTRODUCTION

            The Office of Thrift Supervision (OTS) closed New South Federal Savings Bank
            (New South), Irondale, Alabama, and appointed the Federal Deposit Insurance
            Corporation (FDIC) as receiver on December18, 2009. As of September 3, 2010,
            FDIC estimated that New South’s loss to the Deposit Insurance Fund was $227
            million.

            Under section 38(k) of the Federal Deposit Insurance Act, we are responsible for
            conducting a material loss review of the failure of New South. 1 To help fulfill this
            responsibility, we contracted with Moss Adams LLP, an independent certified public
            accounting firm. Moss Adams’s report dated July 14, 2011, is provided as
            Section I.

            RESULTS OF MATERIAL LOSS REVIEW

            We concur with Moss Adams’s reported conclusions regarding New South’s causes
            of failure and OTS’s supervision of New South:

                •   New South failed primarily because of significant loan losses incurred
                    as a result of a concentration in higher-risk loan products, including
                    residential construction, land, nonconforming residential mortgage,

            1
             At the time of New South’s failure, section 38(k) defined a loss as material if it exceeded the
            greater of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section
            38(k) defines a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150
            million for calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter
            (with a provision that the threshold be raised temporarily to $75 million under certain conditions).
Page 2

       and indirect auto loans in geographic areas hit hardest by the
       economic recession. New South management attempted to achieve
       better earnings through this strategy but failed to manage the risk.

   •   OTS identified the high risks associated with New South’s portfolio of
       higher-risk loan products, but did not aggressively pursue resolution
       until it was too late. During examinations from 2004 through 2008,
       OTS reported that the risk was mitigated by adequate credit
       administration and lending controls. Prior to 2009, OTS’s only action
       was an informal agreement in 2003 to require New South to maintain
       higher levels of capital due to its high-risk profile. However, OTS
       relaxed the requirements of the agreement in 2005, and did not take
       further action as concentrations rose and capital ratios declined, until
       2009.

Details of Moss Adams’s conclusions are contained in their report.

We also concur with Moss Adams’s reported recommendation that OTS consider
tracking and re-assessing capital requirements as risk and concentrations change
on a quarterly basis. While we believe this recommendation is appropriate based on
the findings and conclusions by Moss Adams, it should be noted that pursuant to
P.L. 111-203, the functions of OTS will transfer to other federal banking agencies
on July 21, 2011

OBJECTIVES, SCOPE, AND METHODOLOGY

Under section 38(k), we are required to prepare a report to OTS that (1) ascertains
why New South’s problems resulted in a material loss to the Deposit Insurance
Fund; (2) reviews OTS’s supervision of the institution, including its implementation
of the prompt corrective action provisions of section 38(k); and (3) makes
recommendations for preventing any such loss in the future.

To assist us in fulfilling this responsibility, we contracted with Moss Adams to
perform a material loss review in accordance with generally accepted government
auditing standards. We evaluated the nature, extent, and timing of the work;
monitored progress throughout the audit; reviewed the documentation of Moss
Adams; met with its principals and staff; evaluated the key judgments; met with
OTS officials; performed independent tests of OTS supervisory records; and
performed other procedures we deemed appropriate in the circumstances. We
conducted our work in accordance with generally accepted government auditing
standards.

Should you wish to discuss the report, you may contact me at (617) 223-8638.
This page intentionally left blank.
                      Section I

            Moss Adams LLP’s Report on the
Material Loss Review of New South Federal Savings Bank
This page intentionally left blank
            INSPECTOR GENERAL

   DEPARTMENT OF THE TREASURY

         MATERIAL LOSS REVIEW

NEW SOUTH FEDERAL SAVINGS BANK

                     July 14, 2011
Contents


   Moss Adams LLP Audit Report................................................................................1
          Results in Brief ... ...............................................................................................................2

          Causes of New South’s Failure ... ......................................................................................3
            New South Incurred Significant Loan Losses Beginning in 2008 .................................3
            New South Pursued an Aggressive Growth Strategy and Carried High Loan
               Concentrations …………………………... ...............................................................4
            New South Board and Management Failed to Adequately Manage Risk ....................7

          OTS’s Supervision of New South ... ...................................................................................9
            OTS Identified the Risk at New South but Failed to Take Appropriate Action ..............9
            OTS Should Have Required New South to Curtail its High-Risk Business Model ........11
            OTS Should Have Required New South to Retain Additional Capital...........................12
            OTS Used PCA After Capital Fell to Significantly
                Undercapitalized Level ............................................................................................14
            OTS’ Internal Failed Bank Review ............................................................................. 15

          Recommendation ...............................................................................................................16


      Appendices

          Appendix 1: Objectives, Scope, and Methodology ..........................................................17
          Appendix 2: Background ... ........................................................................................... 20
          Appendix 3: Management Response .............................................................................25




                    Material Loss Review of New South Federal Savings Bank (OIG-11-087)                             Page i
Contents


      Abbreviations

           ALLL             Allowance for loan and lease Loss
           C&D              Cease and desist
           CEO              Chief executive officer
           New South        New South Federal Savings Bank
           FDIC             Federal Deposit Insurance Corporation
           LTV              Loan-to-value
           MRBA             Matters requiring board attention
           OIG              Office of Inspector General
           OTS              Office of Thrift Supervision
           PCA              Prompt corrective action
           ROE              Report of examination
           TFR              Thrift financial report




             Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page ii
Inspector General
Department of the Treasury

RE: Transmittal Results for the Material Loss Review for
New South Federal Savings Bank, Irondale, Alabama

This letter is to acknowledge delivery of our performance audit report on the Material
Loss Review for New South Federal Savings Bank (New South).

The objectives of this performance audit were to: (1) determine the causes of New
South’s failure and resulting loss to the Deposit Insurance Fund and (2) assess the
Office of Thrift Supervision’s (OTS) supervision of New South, including implementation
of the prompt corrective action (PCA) provisions of section 38 of the Federal Deposit
Insurance Act.

The information included in this report was obtained during our fieldwork, which
occurred during the period from March 15, 2010, through July 31, 2010. The estimated
loss to the Deposit Insurance Fund for New South at the time of its failure on December
18, 2009, was $227 million.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We also included several appendices to this report. Appendix 1 contains a more
detailed description of our Material Loss Review objectives, scope, and methodology.
Appendix 2 contains background information on New South’s history and OTS’s
supervision process.

Spokane, Washington
July 14, 2011




                    Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 1
Results in Brief
                               The primary cause of New South Federal Savings Bank’s failure was the
                               significant loan losses incurred as a result of aggressive lending
                               strategies. This led to a concentration 2 in higher-risk loan products,
                               including residential construction, land, 3 nonconforming residential
                               mortgage, and indirect auto loans in geographic areas hit hardest by the
                               economic recession.

                               OTS’s supervision of New South did not aggressively pursue resolution to
                               risks and problems identified in the examinations until it was too late.

                               The only OTS action prior to 2009 was an informal agreement in 2003 to
                               require New South to maintain higher levels of capital due to its high-risk
                               profile. The requirements of the agreement, however, were relaxed in
                               2005 by OTS. We found no tracking or revisions to that agreement as
                               concentrations rose and capital ratios declined, nor any other directive to
                               retain more capital prior to 2009.

                                It was not until after the September 2008 examination that OTS took a
                                formal enforcement action by issuing a cease and desist order (C&D) in
                                April 2009.

                                As a result of the work we performed, we recommend OTS consider
                                tracking and re-assessing capital requirements as risk and
                                concentrations change on a quarterly basis.




2
  Certain terms that are underlined when first used in this report, are defined in, Safety and Soundness: Material Loss Review Glossary,
OIG-11-065 (April 11, 2011). That document is available on the Treasury Office of Inspector General’s (OIG) website at
http://www.treasury.gov/about/organizational-structure/ig/Documents/oig11065%20(508).pdf
3
  Land loans include lot loans and land development loans.




                  Material Loss Review of New South Federal Savings Bank (OIG-11-087)                   Page 2
Causes of New South’s Failure
                      The primary cause of New South’s failure was the significant loan
                      losses incurred as a result of a concentration in higher-risk loan
                      products, including residential construction, land, nonconforming
                      residential mortgage, and indirect auto loans in geographic areas hit
                      hardest by the economic recession. New South management
                      attempted to achieve better earnings through this strategy but failed to
                      manage the risk.

                      New South Incurred Significant Loan Losses Beginning in 2008

                      New South experienced significant net operating losses between
                      January 2008 and September 2009. Net loan charge offs of over $120
                      million were taken in New South’s residential construction, land,
                      nonconforming residential mortgage, and indirect auto loan portfolios
                      during the same timeframe. New South’s equity capital declined from
                      over $140 million at January 1, 2008, to less than $3 million at
                      September 30, 2009, leaving it classified as “critically
                      undercapitalized.” When New South began to experience significant
                      loan losses in 2008, the majority of those losses were from residential
                      construction, land, and nonconforming residential mortgage loans.

                      The nonconforming residential mortgage and indirect auto loans
                      included high levels of loans with subprime characteristics. Between
                      December 31, 2005, and September 30, 2008, total loans with
                      subprime characteristics grew from $270 million to $455 million.

                      Management’s strategy was to retain nonconforming mortgage loans,
                      which included the subprime loans, in order to increase the yield of
                      New South’s loan portfolio. Additionally, New South generated these
                      loans in rising real estate markets around the country. When real
                      estate values in these markets experienced severe declines beginning
                      in 2006, New South was exposed because of its higher-risk portfolio
                      and was limited in its ability to respond in a declining market.

                      New South did not experience net operating losses until the second
                      quarter of 2008. Net losses accelerated in subsequent quarters.
                      During the period of January 2008 through September 2009, New



          Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 3
            South had a total of over $135 million in net losses, with nearly 70
            percent, or $100 million, of the net losses occurring in the second and
            third quarters of 2009.

            Net losses were driven by the increase in the provision expense,
            which was needed to increase the allowance for loan and lease loss
            (ALLL). In its 2004, 2006, and 2007 examinations, OTS examiners
            concluded that the ALLL balance was sufficient. However, in the 2008
            examination, examiners determined the ALLL was insufficient and
            instructed management to enhance its methodology to take into account
            delinquency rates and trends, and to improve the appraisal review
            function within the impairment calculation to include better documentation
            of independent reviews. Also in the September 2008 examination,
            examiners classified $41 million of loans, which resulted in
            management’s calculation of an additional $1 million needed in the ALLL
            as of September 30, 2008.

            This increase in the provision expense was significantly affected by
            both subprime lending and the declining housing market. Although
            residential construction and land loans made up $349 million of total
            loans at December 31, 2007, representing 21 percent of total loans,
            net charge offs experienced in this segment of the portfolio were
            approximately $84 million, representing more than 65 percent of net
            charge offs from January 1, 2008, to September 30, 2009.

            New South Pursued an Aggressive Growth Strategy and Carried
            High Loan Concentrations

            New South generated loans through a growth strategy from 2004
            through 2008. This growth strategy resulted in high concentrations of
            loans, both by loan type and geography. These loan concentrations
            included residential construction, land, and nonconforming residential
            mortgage loans. Additionally, this strategy was coupled with growth in
            some of the fastest growing real estate markets in the country, including
            Nevada, Georgia, Arizona, and Texas. New South increased total loans
            by approximately 43 percent or $507 million from December 31, 2004,
            through the peak at March 31, 2008. This growth is shown in the
            following graph, noted as Figure 1.




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 4
            Figure 1: Loan Growth by Category
            ($ in millions)




            In addition to New South’s growing concentrations during the years 2005
            through 2008 shown in Figure 1, of particular note is the following:

                 •     The largest piece of the loan portfolio during this period was the
                       nonconforming residential mortgage loans, which reached a peak
                       in 2008 of $701 million, or 547 percent of risk-based capital.

                 •     The second largest piece of the loan portfolio during the period of
                       2005 through 2008 was the residential construction and land
                       loans, which reached a peak in 2006 of $337 million, or 218
                       percent of risk-based capital.

                 •     Although the nonconforming residential mortgage loans
                       represented the largest concentration of the loan portfolio, as




Material Loss Review of New South Federal Savings Bank (OIG-11-087)    Page 5
                                       noted above, the residential construction and land loans increased
                                       from $269 million at December 31, 2004, to $337 million at
                                       December 31, 2007, an increase of $68 million, or 25 percent.

                              With loan production offices in 12 states, New South was able to grow
                              and diversify its loan portfolio geographically. Virtually all of the loans
                              were secured by real estate and concentrated in six 4 major markets.
                              Many of these markets experienced unprecedented declines in real
                              estate values from January 2006 to December 2008, which furthered the
                              deterioration of New South’s asset quality.

                              New South’s residential construction and land loans increased
                              significantly in Nevada, and also increased moderately in Georgia,
                              Tennessee, Arizona, and Texas. Each of these markets experienced a
                              decline from 2006 to 2008, and the largest decline took place in
                              Nevada, the state where New South’s concentration grew the most
                              over the period.

                              With the drop in housing and real estate prices, many residential
                              construction and development projects were worth less than the
                              outstanding loan balances. New South was forced to write down the
                              balances of many loans due to rapidly declining collateral values
                              following significant delinquencies. Additionally, as a result of falling
                              home values, borrowers were unable to sell properties at prices
                              adequate to pay off existing loans. Many borrowers did not repay loan
                              obligations and defaulted on mortgage loans as did homebuilders and
                              developers.

                              On December 31, 2005, of the more than $270 million of subprime
                              loans in New South’s loan portfolio, management noted that over $100
                              million of these loans had at least one delinquent payment in the
                              previous 12-month period. Management, however, continued to
                              increase the Bank’s exposure to subprime credits to over $455 million
                              as of September 30, 2008.



4
 Based on review of OTS examination files, the major markets that New South was lending in were Nevada, Georgia,
Tennessee, Arizona, Texas, and Alabama.




                 Material Loss Review of New South Federal Savings Bank (OIG-11-087)              Page 6
            New South Board and Management Failed to Adequately Manage
            Risk

            New South’s operating strategy and business model was built on
            higher-risk activities that included growth, subprime lending, and a
            practice of retaining high-yielding, high-risk loans in its portfolio. This
            operating strategy was an attempt to achieve better earnings but
            resulted in substantial losses once the economic environment became
            less favorable.

            In our review of the examination reports and OTS summary of Board
            minutes and actions, as well as the Board-approved annual business
            plans, we noted that as early as 2006, when mortgage loan
            originations began to decline, management and the Board refocused
            its attention to nonconforming residential mortgage loans to keep
            production levels higher. During 2007, management increased the
            nonconforming residential mortgage loan portfolio by approximately
            $170 million, or 38 percent. The Board discussed this strategy
            throughout 2007 and concluded this was the appropriate direction,
            given the higher yields and the overall strategic plan of New South.

            Management was slow to respond when property values began to
            decline and did not adequately monitor geographic concentrations. As
            early as 2006, management identified that home sales nationally were
            down 13 percent from a year earlier. The Board noted that this was
            due to consumers expecting home prices to begin declining.
            Management’s response was to specifically include expansion of the
            mortgage lending programs in its 2007 strategic plan.

            During the fourth quarter of 2007, the Board and management were
            informed of at least five homebuilders in various markets that were
            having difficulties meeting their loan obligations. These builders were
            located in Arizona and Georgia and their developments should have
            raised concerns with the Board and management about economic
            developments in these areas. By the first quarter of 2008, classified
            assets had increased by 25 percent to $104 million. This increase was
            primarily due to problem loans in the residential construction lending
            portfolio. Despite this increase in problem loans, management did not
            increase the ALLL.



Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 7
            New South’s management team was based primarily in Alabama,
            geographically distant from states where the thrift had significant
            amounts of residential construction and land loans. While the 2007
            OTS examination specifically mentioned management’s “excellent job
            of analyzing the local areas and economies prior to entering a
            particular marketplace,” there was no evidence in the examination
            reports and supporting documentation of ongoing monitoring of these
            marketplaces after the Bank had established a presence in a particular
            market.

            In the quarterly Board meetings from 2006 through 2008, there was no
            mention of geographically-specific economic issues, nor any evidence
            that the economic conditions of the lending areas were considered.
            Management acknowledged late in 2008 that New South had not been
            as conservative as it should have been during the years 2005 through
            2007 in its management of the residential construction lending
            portfolio.

            Management designed and promoted lending programs for higher-risk
            borrowers, particularly in the indirect auto lending and the residential
            mortgage lending programs. These programs successfully attracted
            subprime borrowers, defined by New South as borrowers with credit
            scores of 660 or lower. As of September 30, 2008, according to OTS’s
            examination report of the same date, New South carried approximately
            $455 million of these subprime loans, which was 23 percent of loans
            outstanding. This represented an increase of $185 million in these
            high-risk loans, as compared to December 31, 2005. The increase in
            this segment of the portfolio was a direct result of management’s
            strategy of retaining these types of loans because of the higher-yields
            they typically carry.

            Net charge offs in the residential mortgage and indirect auto loan
            portfolios from January 1, 2008, to September 30, 2009, totaled over
            $36 million. The significant increase in subprime loans New South
            retained in 2006 and 2007, noted previously, created a significant
            credit risk exposure.

            As a result of this high-risk business strategy and management’s



Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 8
                     inadequate monitoring of the conditions it created, coupled with the
                     economic downturn and decline in property values, New South
                     experienced losses from which it did not recover.


OTS’s Supervision of New South
                     OTS’s supervision of New South did not aggressively pursue resolution
                     to risks and problems as identified in the examinations, related to
                     curtailing New South’s high-risk business model and retaining additional
                     capital commensurate with its risk profile, until it was too late.

                     In the October 2004 safety and soundness examination, OTS identified
                     New South’s loan portfolio as “high-risk given its significant
                     nonhomogenous auto and nonconforming subprime mortgage portfolios.”
                     The theme was repeated in each examination leading up to the
                     September 2008 examination. However, it was also noted that this risk
                     was mitigated by adequate credit administration and lending controls. It
                     was not until the September 2008 examination and subsequent January
                     2009 visitation that OTS took formal supervisory action at New South.

                     The only OTS action prior to 2009 was an informal agreement in 2003 to
                     require New South to maintain higher levels of capital due to its high-risk
                     profile. The requirements of the agreement, however, were relaxed in
                     2005 by OTS. We found no tracking or revisions to that agreement as
                     concentrations rose and capital ratios declined, nor any other directive to
                     retain more capital prior to 2009.

                     OTS Identified the Risk at New South but Failed to Take
                     Appropriate Action

                     OTS correctly identified New South’s portfolio as high risk, but failed to
                     use its supervisory capacity to reduce the credit risk the institution’s
                     lending strategies were creating. During the September 2008 full scope
                     safety and soundness examination, OTS became fully aware of the
                     financial stress New South was under. The report of examination (ROE)
                     identified for the first time that New South was in an “unsafe and unsound
                     condition” requiring immediate action by management and the Board of
                     Directors to address the concerns noted in the report.



         Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 9
              Until 2008, New South had received CAMELS composite ratings of “2” in
              the previous five ROEs, dating back to February 2002. In virtually every
              examination, very few matters requiring board attention (MRBA) were
              noted in the examinations and only a few items were noted for corrective
              action. OTS examiners, however, repeatedly expressed concern about
              the high risk posed by New South’s concentration of land, construction,
              indirect auto, and nonconforming residential mortgage loans. OTS also
              noted the concentrations continued to grow in 2006 and 2007. Table 1
              provides the historical details of New South’s previous examinations.

              Table 1. Summary of OTS’s New South Examinations and Enforcement Actions
                                                    Examination Results
                                                                                     Informal and
                       Date       Assets                     Number   Number of         Formal
                      Mailed         (in       CAMELS          of     Corrective     Enforcement
 Date Started                     millions)     Rating       MRBAs     Actions          Actions
 10/25/2004         2/18/2005      1,403       2/222211         0        2         None
  1/30/2006         5/19/2006      1,653       2/222211         1         1        None
  5/31/2007         9/27/2007      1,812       2/222211         1         1        None
  9/2/2008          2/13/2009      1,962       4/444442         9        14        None
                                                                                   On 5/15/2009, OTS
     NA                NA            NA        4/444442        NA        NA        issued a C&D to
                                                                                   New South
  1/23/2009         1/26/2009      1,944       4/444442        NA        NA        None
                                                                                   On 8/3/2009, New
                                                                                   South deemed
                                                                                   “Significantly
                                                                                   Undercapitalized”;
                                                                                   Prompt Corrective
     NA                NA            NA        4/444442        NA        NA        Action initiated
                                                                                   8/3/2009; requires
                                                                                   New South to file a
                                                                                   Capital Restoration
                                                                                   Plan with OTS by
                                                                                   August 28, 2009.
   9/4/2009         9/4/2009       1,712       5/554542         NA       NA        Rating downgrade
    Source: OTS Reports of Examination.




Material Loss Review of New South Federal Savings Bank (OIG-11-087)      Page 10
            New South received exactly the same component and composite
            CAMELS ratings in the 2004, 2006, and 2007 examinations, followed by
            a downgrade to a composite 4 in 2008. We noted capital and
            concentration concerns prevailed throughout the period. The increasing
            loan losses contributed to the deterioration of capital. More aggressive
            enforcement actions may have been appropriate to increase capital
            requirements, to curtail lending activity, and to sell nonconforming loans
            until concentrations came within acceptable guidelines.

            OTS Should Have Required New South to Curtail Its High-Risk
            Business Model

            OTS defines a concentration as a group of similar types of assets or
            liabilities that, when aggregated, exceeds 25 percent of a thrift’s risk-
            based capital. Concentrations pose additional risk because the same
            economic, political, or environmental event can negatively affect the
            entire group of assets or liabilities. New South had high concentrations,
            as defined by OTS, in residential construction, land, nonconforming
            residential mortgages, and indirect auto loans, without adequate
            additional levels of capital to compensate for the additional risk.

            Section 212 of the OTS Examination Handbook specifically addresses
            nontraditional mortgage products and the appropriate supervisory
            response. Appendix F of Section 212, dated March 2007, states that
            institutions should have risk management practices and monitoring
            systems to track and manage concentrations. Ineffective management
            of concentrations is subject to elevated supervisory attention to assure
            timely remediation.

            Section 201 of the OTS Examination Handbook, dated June 2005,
            does not provide specific tolerable concentration levels; however, it
            does provide some examples of concentrations that represent
            supervisory concern. Examiner emphasis should be on assessing
            management’s effectiveness in identifying and controlling
            concentration risk.

            As noted earlier, New South increased total loans by approximately 43
            percent or $507 million from 2004 through the peak in 2008, and as
            shown on Figure 1, New South invested in high-risk loans during this



Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 11
            time period, resulting in mounting concentration and credit risk. OTS
            examiners did not require New South to limit concentrations in higher-
            risk loan products until 2008, when these loans began deteriorating in
            asset quality.

            Also as previously noted, OTS and New South entered into an
            informal agreement in January 2003 because of concerns related to
            capital levels. Based on discussions with management, OTS was
            persuaded to relax some of those requirements in 2005, at a time
            when loan concentrations were growing and capital concerns had not
            been adequately addressed. Rather than relax the capital requirements,
            we believe OTS should have taken formal enforcement action, such as a
            formal written agreement, to curb and monitor New South’s higher risk
            and concentrated loan growth as soon as it became a repeat finding in
            the examination. The OTS did not take formal or informal enforcement
            action until 2009 when a Letter Notification of Troubled Condition was
            sent and a C&D Order was issued to New South.

            We also believe OTS should have deployed more aggressive
            enforcement actions and monitoring from 2005 forward to curtail the
            aggressive business model that laid the path to New South’s failure.

            OTS Should Have Required New South to Retain Additional Capital

            OTS has the authority to establish a higher than normal capital
            requirement for a thrift. In January 2003, New South entered into an
            informal agreement that required New South to provide additional risk-
            based capital to support the loan portfolio because loan-to-value (LTV)
            and credit quality portrayed characteristics of subprime lending. The
            intent of the agreement was to require New South to keep additional
            capital to compensate for the additional risk in its loan portfolio. The
            terms of the agreement required that New South utilize higher
            percentages in calculating the required capital for certain higher-risk
            loan types. Not all segments of loans required additional risk
            weightings; however, the agreement specified additional capital
            consideration for nonconforming residential mortgage loans, conforming
            residential mortgage loans, manufactured housing loans, and auto
            loans.




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 12
            In October 2005, New South requested OTS consider reducing some of
            the requirements in the agreement. After review, OTS took no exception
            to New South’s request primarily due to management’s argument that the
            historical losses associated with the nonprime portfolio were not
            significant to warrant appreciable additional capital support. Additionally,
            management contended that the expense of tracking those loans with
            delinquencies greater than 1 year was considerable. The original
            agreement distinguished between loans with late payments within the
            prior 24 months, the prior 18 months, and within the prior 12 months. The
            revised agreement allowed the Bank to subdivide the delinquencies into
            two categories – those with no late payments over the previous 12
            months and all others.

            The result of this change was a reduction in the required capital under
            the revised agreement. Based on September 30, 2005, data, New
            South would be required to hold approximately $124 million in capital,
            compared to $130 million required under the original agreement, a
            decrease of $6 million, in order to maintain a risk-based capital level of
            10.94 percent. The revised plan became effective December 31, 2005.

            From December 2005 until June 2008, the core capital of New South
            increased from $130 million to $140 million, but the core capital ratio
            declined from 10.72 percent to 9.83 percent. This decline resulted from
            assets growing at a quicker pace than the Bank’s retained capital
            generated from earnings.

            The use of the informal agreement was an appropriate initial response
            to the risk in New South’s loan portfolio but did not go far enough to
            assure that capital levels matched the increasing risk in the loan
            portfolio. OTS examiners repeatedly expressed concern about the high
            risk posed by New South’s concentration of land, residential
            construction, and nonconforming residential mortgages. The intent of
            the informal agreement was to require New South to retain additional
            capital in order to offset the credit risk in the Bank’s portfolio. OTS
            noted that concentrations continued to grow in 2006 and 2007, but the
            2005 agreement for higher-capital ratios was not revised to reflect the
            increasing risk. During our interviews with examiners, they indicated
            that because the Bank continued to be rated an overall composite 2,




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 13
            they saw no reason to revise the agreement to require higher capital
            ratios.

            Quarterly monitoring reviews based on Thrift Financial Reports (TFR)
            are performed at a high level, focusing on lending trends and asset
            quality. The Detailed Hits Report, included in the reviews, cite
            significant changes and highlight key variances; however, there was no
            indication that the relationship of capital requirements to rising
            concentrations and delinquencies were included in the review analytics.

            New South was continuing to increase its risk profile, as noted in the
            OTS Quarterly Monitoring Reviews, we believe OTS should have
            recognized that New South’s voluntary capital level was not achieving
            its intended outcome and, as a result, taken a stronger regulatory
            approach.

            OTS Used PCA After Capital Fell to Significantly Undercapitalized Level

            The purpose of PCA is to resolve the problems of insured depository
            institutions at the least possible long-term cost to the Deposit Insurance
            Fund. PCA provides federal banking agencies with the authority to take
            certain actions when an institution’s capital drops to certain levels.
            PCA also gives regulators flexibility based on criteria other than capital
            to help reduce deposit insurance losses caused by unsafe and unsound
            practices.

            On May 15, 2009, OTS issued a C&D. OTS required New South to
            meet and maintain specific capital levels, and OTS deemed the thrift to
            be adequately capitalized, even though New South’s capital level met
            the definition of well capitalized. While its capital level met the
            definition of well capitalized, OTS examiners stated in the 2008 ROE
            that New South’s capital was considered insufficient to fully support the
            risk profile of New South. Because of its adequately capitalized
            designation, New South was prohibited from accepting or renewing
            brokered deposits unless it obtained a waiver from the Federal
            Deposit Insurance Corporation (FDIC). New South remained
            designated as adequately capitalized until June 2009.




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 14
            OTS implemented PCA as described below, based on specific criteria:

                •   On August 3, 2009, OTS notified New South that it was
                    significantly undercapitalized based on the Bank’s June 30,
                    2009, TFR. OTS directed New South to submit an acceptable
                    capital restoration plan by August 28, 2009. OTS also informed
                    New South that it must comply with PCA-required restrictions on
                    the payment of dividends and management fees. New South
                    submitted a plan on August 28, 2009, and a revised plan on
                    August 31, 2009.

                •   On September 24, 2009, New South informed OTS that based
                    on financial results, as of August 31, 2009, it had fallen into the
                    “critically undercapitalized” category under PCA standards.

                •   On October 30, 2009, OTS denied New South’s capital
                    restoration plan submitted on August 28, 2009, and revised on
                    August 31, 2009. Also, OTS issued a Notice of Intent to Issue a
                    Prompt Corrective Action Directive.

                •   On November 10, 2009, OTS issued New South a Prompt
                    Corrective Action Directive, and New South stipulated and
                    consented to the terms of the agreement. The terms required
                    recapitalization in order to achieve and maintain minimum
                    capital requirements within 30 days or the delivery of a binding
                    merger agreement with another financial institution within 15
                    days.

            We concluded that the actions taken were in accordance with PCA
            requirements. However, capital concerns existed throughout the
            examinations and OTS should have taken action sooner and more
            forcefully through its other enforcement authorities.

            OTS’ Internal Failed Bank Review

            OTS conducted an internal failed bank review of New South dated
            October 28, 2010, in accordance with OTS policy. The internal review
            found that New South’s failure was caused primarily by losses on loans
            that resulted from the decline in real estate values as well as the



Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 15
                         economic recession, and was aggravated further by concentrations in
                         various loan types, which raised its risk exposure.

                         OTS’s review concluded that from the September 2008 examination
                         through the date New South was closed, OTS took timely and
                         appropriate action. However, the review further noted that OTS
                         oversight in prior years could have been stronger to limit New South’s
                         risk exposure. We concur with this conclusion.

                         OTS findings and resulting recommendations related to (1)
                         concentration limits, (2) supplementing OTS guidance and training on
                         appropriate stress testing, and (3) on-site examiner presence in high
                         volume locations. OTS has taken action on concentration limits5 and on-site
                         examiner presence in high volume locations,6 and we recommend that
                         action also be taken to implement the other recommendation noted in
                         the report.

Recommendation
                         As a result of the work we performed, we recommend OTS consider
                         tracking and re-assessing capital requirements as risk and
                         concentrations change on a quarterly basis.

                         Management Response

                         OTS generally concurred with the findings and recommendation, as
                         noted in a July 12, 2011, written response to our draft report. OTS
                         management considers being in compliance with this recommendation
                         through the quarterly monitoring process, which includes a review of the
                         capital risk as well as concentration risk analysis. For the full text of OTS
                         response to the draft report, see Appendix 4.




5
  Concentrations were addressed in OTS CEO Letter 311 Risk Management Asset and Liability Concentrations issued on
  July 9, 2009.
6
  Examination Scheduling, Scoping and Management was addressed in OTS Regulatory Bulletin 37-68 issued February 10,
  2011.



             Material Loss Review of New South Federal Savings Bank (OIG-11-087)    Page 16
                                  Appendix 1
                                  Objectives, Scope, and Methodology




                             We performed a Material Loss Review of the failure of New South
                             Federal Savings Bank (New South) under a contract with the
                             Department of the Treasury Office of Inspector General. Our objectives
                             were to determine the causes of New South’s failure and assess its
                             supervision by the Office of Thrift Supervision (OTS).
                             We conducted this review of New South in response to Section 38(k) of
                             the Federal Deposit Insurance Act. This section provides that if a
                             deposit insurance fund incurs a material loss with respect to an insured
                             depository institution, the inspector general for the appropriate federal
                             banking agency is to prepare a report to the agency, that:

                                  •   ascertains why the institution’s problems resulted in a material
                                      loss to the Deposit Insurance Fund;

                                  •    reviews the agency’s supervision of the institution, including its
                                      implementation of the prompt corrective action provisions of
                                      section 38; and

                                  •    makes recommendations for preventing any such loss in the
                                      future. 7

                             To accomplish our review, we conducted fieldwork at OTS regional
                             office in Atlanta, Georgia. We also interviewed officials of the Federal
                             Deposit Insurance Corporation’s (FDIC) Division of Supervision and
                             Consumer Protection and interviewed FDIC’s Division of Resolutions
                             and Receiverships personnel. Additionally, we visited the Jacksonville,
                             Florida, FDIC offices to conduct on-site reviews of certain documents
                             seized from New South and retained by the FDIC. We conducted our
                             fieldwork during April 2010 through July 2010.

                             To assess the adequacy of OTS’s supervision of New South, we
                             determined (1) when OTS first identified New South’s safety and
                             soundness problems; (2) the gravity of the problems; and (3) the
                             supervisory response OTS took to get the Bank to correct the

7
  At the time of New South’s failure, Section 38(k) defined a loss as material if it exceeds the greater of $25 million or
2 percent of the institution’s total assets. Amended by the Dodd-Frank Wall Street Reform and Consumer Protection
Act, effective July 21, 2010, Section 38(k) defines a material loss as any loss in excess of $200 million for calendar
years 2010 and 2011, $150 million for calendar years 2012 and 2013, and $50 million for calendar years 2014 and
thereafter (with a provision that the threshold can be raised temporarily to $75 million if certain conditions are met).



                 Material Loss Review of New South Federal Savings Bank (OIG-11-087)            Page 17
                Appendix 1
                Objectives, Scope, and Methodology


            problems. We also assessed whether OTS (1) might have discovered
            problems earlier; (2) identified and reported all the problems; and (3)
            issued comprehensive, timely, and effective enforcement actions that
            dealt with any unsafe or unsound activities. Specifically, we performed
            the following procedures:

                •   Based on reviews of the reports of examination, we established
                    the scope of our audit would be from 2004 through 2009. We
                    reviewed OTS’s supervisory files and records for New South
                    from 2004 through 2009. We analyzed ROEs, supporting
                    workpapers, and related supervisory and enforcement
                    correspondence. We performed these analyses to gain an
                    understanding of the problems identified, the approach and
                    methodology OTS used to assess the Bank’s condition, and the
                    regulatory action used by OTS to compel Bank management to
                    address deficient conditions. We did not conduct an
                    independent or separate detailed review of the external auditor’s
                    work or associated financial statements other than those
                    available through the supervisory files. The documents available
                    through review of the supervisory files consisted primarily of
                    audited financial statements and internal control
                    recommendations made by the external auditors.

                •   We interviewed and discussed various aspects of the supervision
                    of New South with OTS officials and examiners to obtain their
                    perspective on the Bank’s condition and the scope of the
                    examinations. We also interviewed FDIC officials who were
                    responsible for monitoring New South for federal deposit
                    insurance purposes.

                •   We performed work and interviewed personnel at FDIC’s Division
                    of Resolutions and Receiverships who were involved in the
                    receivership process, which was conducted before and after
                    New South’s closure and appointment of receiver.

                •   We assessed OTS’s actions based on its internal guidance and
                    the requirements of the Federal Deposit Insurance Act, at 12
                    U.S.C. § 1820 et seq.

            We conducted this performance audit in accordance with generally
            accepted government auditing standards. Those standards require that



Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 18
                Appendix 1
                Objectives, Scope, and Methodology


            we plan and perform the audit to obtain sufficient, appropriate
            evidence to provide a reasonable basis for our findings and conclusions
            based on our audit objectives. We believe the evidence obtained
            provides a reasonable basis for our findings and conclusions based on
            our audit objectives.




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 19
                Appendix 2
                Background



            New South History
            New South Federal Savings Bank (New South) was formed in 1985 as
            a subsidiary of Collateral Investment Company. Collateral Investment
            Company was reorganized in 1986 to form Collateral Mortgage, Ltd.
            New South remained a subsidiary of Collateral Mortgage, Ltd., until
            1994 when it was transferred to New South Bancshares, Inc.
            (Bancshares). Bancshares was a unitary, nondiversified holding
            company existing for the sole purpose of holding New South stock.
            Bancshares was controlled by its majority shareholders. As of
            September 30, 2009, New South had only one branch in Irondale,
            Alabama, for retail banking and loan production offices located in
            Alabama, Arizona, Arkansas, Georgia, Nevada, North Carolina,
            Tennessee, and Texas.

            New South had two main business lines: mortgage banking and
            traditional commercial and retail banking. New South’s mortgage
            banking operations historically supplied a considerable amount of
            recurring interest and fee income. New South’s commercial banking
            line focused on out-of-market lending to residential developers and
            other commercial facilities. Many of these commercial facilities were
            auto dealers and New South provided automobile floor plan lending.
            The retail line primarily focused on residential loans and indirect auto
            lending.

            Types of Examinations Conducted by OTS
            OTS conducts various types of examinations including safety and
            soundness, compliance, and information technology.

            OTS must conduct full-scope, onsite examinations of insured thrifts
            once during a 12-month cycle or an 18-month cycle, based on the
            asset size of the institution and other factors. Examinations of New
            South were required to be conducted every 12 months.

            During a full-scope examination, examiners conduct an onsite
            examination and rate all CAMELS components. OTS then assigns each
            thrift a composite rating based on its assessment of the overall
            condition and level of supervisory concern.




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 20
                Appendix 2
                Background


            Enforcement Actions Available to OTS

            OTS performs various examinations of thrifts that result in the issuance
            of reports of examinations identifying areas of concern. OTS uses
            informal and formal enforcement actions to address violations of laws
            and regulations and to address unsafe and unsound practices.

            Informal Enforcement Actions

            When a thrift’s overall condition is sound, but it is necessary to obtain
            written commitments from a thrift’s board of directors or management
            to ensure it will correct identified problems and weaknesses, OTS may
            use informal enforcement actions. OTS commonly uses informal actions
            for problems in a well or adequately capitalized thrift and thrifts with a
            composite rating of 1, 2, or 3.

            Informal actions notify a thrift’s board and management that OTS has
            identified problems that warrant attention. A record of informal action
            is beneficial in case formal action is necessary later.

            If a thrift violates or refuses to comply with an informal action, OTS
            cannot enforce compliance in federal court or assess civil money
            penalties for noncompliance. However, OTS may initiate more severe
            enforcement actions against a noncompliant thrift. The effectiveness of
            informal action depends in part on the willingness and ability of a thrift
            to correct deficiencies that OTS notes.

            Informal enforcement actions include supervisory directives,
            memoranda of understanding, and board resolutions.

            Formal Enforcement Actions

            If informal tools do not resolve a problem that has been identified, OTS
            is to use formal enforcement tools.

            Formal enforcement actions are enforceable under the Federal Deposit
            Insurance Act, as amended. They are appropriate when a thrift has
            significant problems, especially when there is a threat of harm to the
            thrift, depositors, or the public. OTS is to use formal enforcement
            actions when informal actions are considered inadequate, ineffective,




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 21
                Appendix 2
                Background


            or otherwise unlikely to secure correction of safety and soundness or
            compliance problems.

            Because formal actions are enforceable, OTS can assess civil money
            penalties against thrifts and individuals for noncompliance with a formal
            agreement or final orders. OTS can also request a federal court to
            require the thrift to comply with an order. Unlike informal actions,
            formal enforcement actions are public.

            Formal enforcement actions include cease and desist orders, civil
            money penalties, and prompt corrective action directives.

            OTS Enforcement Guidelines

            Considerations for determining whether to use informal action or formal
            action include the following:

                •   the extent of actual or potential damage, harm, or loss to the
                    thrift because of the action or inaction;

                •   whether the thrift has repeated the illegal action or unsafe or
                    unsound practice;

                •    the likelihood that the conduct may occur again;

                •    the thrift’s record for taking corrective action in the past;

                •    the capability, cooperation, integrity, and commitment of the
                    thrift’s management, board of directors, and ownership to
                    correct identified problems;

                •    the effect of the illegal, unsafe, or unsound conduct on other
                    financial institutions, depositors, or the public;

                •    the examination rating of the thrift;

                •    whether the thrift’s condition is improving or deteriorating; and

                •   the presence of unique circumstances.




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 22
                Appendix 2
                Background


            OTS Assessments Paid by New South Federal Savings Bank
            OTS funds its operations, in part, through semiannual assessments on
            savings associations. OTS determines each institution’s assessment by
            adding together three components reflecting the size, condition, and
            complexity of an institution. OTS computes the size component by
            multiplying an institution’s total assets, as reported on its TFR, by the
            applicable assessment rate. The condition component is a percentage of
            the size component and is imposed on institutions that have a 3, 4, or 5
            CAMELS composite rating. OTS imposes a complexity component if (1) a
            thrift administers more than $1 billion in trust assets; (2) the outstanding
            balance of assets fully or partially covered by recourse obligations or
            direct credit substitutes exceeds $1 billion, or (3) the thrift services more
            than $1 billion in loans for others. OTS calculates the complexity
            component by multiplying set rates by the amounts by which an
            association exceeds each threshold. The following table shows the
            assessments that New South paid to OTS from 2004 through 2009.

            Assessments Paid by New South Federal Savings Bank to OTS, 2004–
            2009.

                                                    Examination
                         Billing Period                                Amount Paid
                                                      Rating

                     1/1/2004 - 6/30/2004                  2              $134,811
                     7/1/2004 - 12/31/2004                 2              129,049
                     1/1/2005 - 6/30/2005                  2              136,024
                     7/1/2005 - 12/31/2005                 2              151,327
                     1/1/2006 - 6/30/2006                  2              153,297
                     7/1/2006 - 12/31/2006                 2              158,715
                     1/1/2007 - 6/30/2007                  2              168,889
                     7/1/2007 - 12/31/2007                 2              170,484
                     1/1/2008 - 6/30/2008                  2              178,927
                     7/1/2008 - 12/31/2008                 2              188,885
                     1/1/2009 - 6/30/2009                  4              378,575
                     7/1/2009 - 12/31/2009                 4              371,710

                                  Total                                 $ 2,320,693
                    Source: OTS




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 23
                Appendix 2
                Background


            Number of OTS Staff Hours Spent Examining New South Federal
            Savings Bank

            The following table shows the number of OTS staff hours spent
            examining New South Federal Savings Bank from 2004 to 2009. Hours
            are totaled for safety and soundness examinations, limited examinations,
            and compliance examinations.

                               Examination Start              Number of
                                    Date                   Examination Hours

                                      2004                            2,156
                                      2006                            2,369
                                      2007                            2,905
                                      2008                            3,020
                               1/1/2009 – 7/9/2009                      812

                                          Total                       11,262
                            Source: OTS




Material Loss Review of New South Federal Savings Bank (OIG-11-087)        Page 24
                Appendix 3
                Management Response




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 25
                                  Section II

                           Report Distribution




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 26
Department of the Treasury

        Office of Strategic Planning and Performance
        Management
        Office of Accounting and Internal Control

Office of Thrift Supervision

        Acting Director
        Liaison Officer

Office of Management and Budget

        OIG Budget Examiner

United States Senate

        Chairman and Ranking Member
        Committee on Banking, Housing, and Urban Affairs

        Chairman and Ranking Member
        Committee on Finance

U.S. House of Representatives

        Chairman and Ranking Member
        Committee on Financial Services

Federal Deposit Insurance Corporation

        Acting Chairman
        Inspector General

U.S. Government Accountability Office

        Comptroller General of the United States




Material Loss Review of New South Federal Savings Bank (OIG-11-087)   Page 27
